            DEPARTMENT OF HEALTH AND HUMAN SERVICES                                    Office of Inspector General
                                                                                        Office of Audit Services

                                                                                             REGION IV
                                         SEP        4 2008                       61 Forsyth Street, S.W., Suite 3T41
                                                                                      Atlanta, Georgia 30303




Report Number: A-04-07-06025

Mr. Bruce W. Hughes
President and Chief Operating Officer
Palmetto GBA
2300 Springdale Drive, Building 1
Camden, South Carolina 29020

Dear Mr. Hughes:

Enclosed is the U.S. Department ofRealth and Human Services (HRS), Office ofInspector
General (DIG), final report entitled "Review of High-Dollar Payments for Medicare Part B
Claims Processed by Palmetto GBA, Carrier #880, for the Period January 1, 2004, Through
December 31,2006." We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
P.L. No. 104-231, DIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR pt. 5). Accordingly, this report will
be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mary Ann Moreno, Audit Manager, at (904) 232-2687 or through e-mail at
Mary.Moreno@oig.hhs.gov. Please refer to report number A-04-07-06025 in all
correspondence.

                                               Sincerely,


                                                ....-rer VI_

                                               P ter J. Barbera
                                                               ,:7.   f1.4
                                                                         J!,.
                                                                          IIf}"
                                                                                (I.-
                                                 egional Inspector General
                                                for Audit Services

Enclosure
Page 2 - Mr. Bruce W. Hughes

Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    REVIEW OF HIGH-DOLLAR
    PAYMENTS FOR MEDICARE
  PART B CLAIMS PROCESSED BY
 PALMETTO GBA, CARRIER #880,
        FOR THE PERIOD
   JANUARY 1, 2004, THROUGH
      DECEMBER 31, 2006




                      Daniel R. Levinson
                       Inspector General

                       September 2008
                        A-04-07-06025
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office ofmspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office ofmvestigations (Ol) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops 'and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS), which administers the program,
contracts with carriers to process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). CMS guidance requires providers to bill accurately and to report
units of service as the number of times that a service or procedure was performed.

Carriers currently use the Medicare Multi-Carrier Claims System and CMS's Common Working
File to process Part B claims. These systems can detect certain improper payments during
prepayment validation.

Palmetto GBA (Palmetto) is the Medicare Part B carrier for providers in South Carolina. During
calendar years 2004-2006, Palmetto processed claims for 12,750 Part B providers; 371 claims
resulted in payments of$10,000 or more (high-dollar payments).

OBJECTIVE

Our objective was to determine whether Palmetto's high-dollar Medicare payments to Part B
providers were appropriate.

SUMMARY OF FINDING

Of the 371 high-dollar payments that Palmetto paid to providers, 355 were appropriate. Palmetto
overpaid 16 providers $33,953 for the remaining claims.

The providers attributed the incorrect claims to clerical errors. In addition, Palmetto made the
overpayment because providers incorrectly submitted claims and the Medicare claim processing
systems did not have sufficient edits in place during calendar years 2004-2006 to detect and
prevent payments for these types of erroneous claims. However, in January 2007, Palmetto
implemented CMS-required units-of-service edits referred to as "medically unlikely" edits to
suspend potentially excessive Medicare payments for prepayment review.

RECOMMENDATION

We recommend that Palmetto recover the $33,953 in overpayments.

PALMETTO GBA COMMENTS

In its written comments on our draft report, Palmetto agreed to recover the $33,953 in
overpayments. The complete text of Palmetto's comments is included as the Appendix.




                                                1
                       TABLE OF CONTENTS



INTRODUCTION                               1

    BACKGROUND                             1
        Medicare Part B Carriers           1
        Palmetto GBA                       1
        "Medically Unlikely" Edits         1

    OBJECTIVE, SCOPE, AND METHODOLOGy      2
         Objective                         2
         Scope                             2
         Methodology                       2

FINDING AND RECOMMENDATION                 .3

    MEDICARE REQUIREMENTS                  3

    INAPPROPRIATE HIGH-DOLLAR PAYMENTS     3

    CAUSES OF INCORRECT PAYMENTS           .4

    RECOMMENDATION                         4

    PALMETTO GBA COMMENTS                  4

APPENDIX

    PALMETTO GBA COMMENTS




                                     11
                                              INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Carriers

Prior to October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers to
process and pay Medicare Part B claims submitted by physicians and medical suppliers
(providers). 1 Carriers also review provider records to ensure proper payment and assist in
applying safeguards against unnecessary utilization of services. To process providers' claims,
carriers currently use the Medicare Multi-Carrier Claims System and CMS's Common Working
File (CWF). These systems can detect certain improper payments during prepayment validation.

CMS guidance requires providers to bill accurately and to report units of service as the number of
times that a service or procedure was performed. During calendar years (CY) 2003-2005,
providers nationwide submitted approximately 2.3 billion claims to carriers. Of these, 29,022
claims resulted in payments of$10,000 or more (high-dollar payments). We consider such
claims to be at high risk for overpayment.

Palmetto GBA

Palmetto GBA (Palmetto) is the Medicare Part B carrier for providers in South Carolina. During
calendar years (CY) 2004-2006, Palmetto processed claims for 12,750 Part B providers; 371
claims resulted in payments of $1 0,000 or more (high-dollar payments).

"Medically Unlikely" Edits

In January 2007, after our audit period, CMS required carriers to implement units-of-service edits
referred to as "medically unlikely" edits. These edits are designed to detect and deny unlikely
Medicare claims on a prepayment basis. According to the "Medicare Program Integrity Manual,"
Publication 100-08, Transmittal 178, Change Request 5402, medically unlikely edits test claim
lines for the same beneficiary, Healthcare Common Procedure Coding System code, date of
service, and billing provider against a specified number of units of service. Carriers must deny
the entire claim line when the units of service billed exceed the specified number.




lThe Medicare Modernization Act of2003, Pub. L. No. 108-173, which became effective on October 1, 2005,
amended certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors
replace carriers and fiscal intermediaries by October 2011.



                                                          1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Palmetto's high-dollar Medicare payments to Part B
providers were appropriate.

Scope

We reviewed the 371 high-dollar payments totaling $4,454,224 that Palmetto processed during
CYs 2004-2006. We limited our review of Palmetto's internal controls to those applicable to the
371 high-dollar claims because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance ofthe authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

We performed our fieldwork from October 2007 through May 2008. Our fieldwork included
contacting Palmetto, located in Columbia, South Carolina, and the providers that received high-
dollar payments.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    used CMS's National Claims History file to identify Medicare Part B claims with high-
        dollar payments;

   •    reviewed available CWF claim histories for claims with high-dollar payments to
        determine whether the claims had been canceled and superseded by revised claims or
        whether payments remained outstanding at the time of our fieldwork;

   •    analyzed CWF data for canceled claims for which revised claims had been submitted to
        determine whether the initial claims were overpayments;

   •    contacted providers to determine whether high-dollar claims were billed correctly and, if
        not, why the claims were billed incorrectly; and

   •    coordinated our claim review, including the calculation of any overpayments, with
        Palmetto.




                                                2
We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Of the 371 high-dollar payments that Palmetto paid to providers, 355 were appropriate. Palmetto
overpaid providers $33,953 for the remaining 16 claims.

The providers attributed the incorrect claims to clerical errors. In addition, Palmetto made the
overpayment because providers incorrectly submitted claims and the Medicare claim processing
systems did not have sufficient edits in place during CYs 2004-2006 to detect and prevent
payments for these types of erroneous claims. However, in January 2007, Palmetto implemented
CMS-required units-of-service edits referred to as "medically unlikely" edits to suspend
potentially excessive Medicare payments for prepayment review.

MEDICARE REQUIREMENTS

The CMS "Carriers Manual," Publication 14, Part 2, section 5261.1, requires that carriers
accurately process claims in accordance with Medicare laws, regulations, and instructions.
Section 5261.3 of the manual requires carriers to effectively and continually analyze "data that
identifies aberrancies, emerging trends and areas of potential abuse, overutilization or
inappropriate care, and ... on areas where the trust fund is most at risk, i.e., highest volume
and/or highest dollar codes."

INAPPROPRIATE HIGH-DOLLAR PAYMENTS

Palmetto made overpayments totaling $33,953 for 16 high-dollar claims:

   •   For two claims, the providers stated that they billed incorrectly because at the time they
       did not know whether Medicare was the primary insurer or not. The refund is due to
       Medicare because it was not the primary insurer. As a result, Palmetto overpaid the
       providers $21,331.

   •   For eight claims, the providers stated that they billed incorrect units of service due to
       clerical errors. As a result, Palmetto overpaid the providers $11,332.

   •   For six claims, the providers stated that they billed incorrect procedure codes due to
       clerical errors. As a result, Palmetto overpaid the providers $1,290.




                                                  3
CAUSES OF INCORRECT PAYMENTS

The providers attributed the incorrect claims to clerical errors. In addition, during CYs 2004-
2006, the Medicare Multi-Carrier Claims System and the CMS CWF did not have sufficient
prepayment controls to detect and prevent inappropriate payments resulting from claims for
excessive units of service. Instead, CMS relied on providers to notify carriers of overpayments
and on beneficiaries to review their "Medicare Summary Notice" and disclose any provider
overpayments. 2 However, in January 2007, Palmetto implemented CMS-required units-of-
service edits referred to as "medically unlikely" edits to suspend potentially excessive Medicare
payments for prepayment review.

RECOMMENDATION

We recommend that Palmetto recover the $33,953 in overpayments.

PALMETTO GBA COMMENTS

In its July 18, 2008 written comments on our draft report, Palmetto stated that it had initiated
recovery of the $33,953 in overpayments. The complete text of Palmetto's comments is included
as the Appendix.




2The carrier sends a "Medicare Summary Notice" to the beneficiary after the provider files a claim for Part B
service(s). The notice explains the service(s) billed, the approved amount, the Medicare payment, and the amount
due from the beneficiary.

                                                         4
APPENDIX
                                                                                                                APPENDIX



                                                                                                           BrucaW_Hugbes.
                                                                                            President and Chief Operating Officer




July 18, 2008


Peter J. Barbera
Reaionallnspector General for Audit Services
Office of Inspector General, Region IV
61 Forsyth Street, S.W., Suite 3T41
Atlanta, Georgia 30303


Dear Mr. Barbera:

This is in response to your letter dated June 17, 2008, conveying your draft report entitled
"Review of High-Dollar Payments for Medicare Part B Claims Processed by Palmetto GBA,
Canier #880, for the Period January 1,2004, through December 31, 2006." In your letter, you
requested that Palmetto GBA provide written comments and a status of any action taken on your
recommendations.

The attached draft report indicated that your objective was to determine whether Palmetto
GBA's biab-doUar Medicare payments to Part B providers were appropriate. Baaed on a review
of our bigb-dollar payments, you determined that ofthe 371 bigh-dollar payments that Palmetto
made to providers, 355 were appropriate. You further determined that Palmetto GBA's
erroneous overpayments occurred because the providers filed their claims incorrectly and the
Medicare claims processing system did not have sufficient edits in place. during the time
reviewed, to detect the defined errors and prevent overpayments.

Pursuant to your recommendation, Palmetto GDA obtained copies of the providers' responses to
the OIG's request for information. Palmetto GDA agrees that hued on the provider's comments,
overpayments were inadvertently made because incorrect claim information was submitted.
Therefore, the appropriate recoupment activities have been initiated to recover the $33,953.00 in
identified overpayments and Palmetto GDA will fonow through lDltil all overpayments are
recovered.

Should you have questions or require additional iDformation, please do not hesitate to contact me
at either 803-763-7130 or bruce.buaJtes@palmettogba.com.

                                                           Sincerely,
                                            ----~.
                                                  ~~\,...."..I,




                               _.patmetklQ~,oom   I  Poet OffIce 8oJl100134
                                    ISO 1I0il1 :2000 Columbia, South carolina 211202-3134
